  DEPARTMENT OF JUSTICE
PURCHASE CARD EXPENDITURES
   RELATED TO HURRICANE
     RECOVERY EFFORTS
       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 06-36

            September 2006
                               TABLE OF CONTENTS

                                                                                            Page

INTRODUCTION .............................................................................. 1

Audit Objectives and Scope .............................................................. 1

The DOJ Purchase Card Program ....................................................... 2

Changes to Purchase Card Procedures Following 2005 Hurricanes .......... 3

AUDIT RESULTS.............................................................................. 6

       Transaction Testing ................................................................. 6

       Internal Controls..................................................................... 8

       Conclusion ........................................................................... 10

       Recommendations................................................................. 11

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ........... 12

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ................... 14

APPENDIX II - SUMMARY OF INTERNAL CONTROL ISSUES .................. 16

APPENDIX III - RESPONSES TO THE DRAFT REPORT .......................... 17

APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
        SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT ....... 40
                                  INTRODUCTION

       In the aftermath of Hurricane Katrina, the third most intense hurricane
to hit the continental United States, government purchase cards gained
notoriety for weak internal controls that could result in improper and
wasteful purchases, as well as missing or stolen assets.1 As a result, the
Department of Justice (DOJ) Office of the Inspector General (OIG), in
coordination with the President’s Council on Integrity and Efficiency (PCIE),
completed an audit of DOJ’s purchase card expenditures related to hurricane
relief and recovery efforts.2

Audit Objectives and Scope

      Our audit reviewed whether DOJ components: (1) employed effective
internal controls over hurricane relief purchase card transactions to ensure
that problems are minimized, (2) authorized and validated hurricane-related
purchase card transactions, and (3) received the hurricane-related goods
and services that were purchased.3 The following DOJ components reported
having hurricane-related purchase card transactions and were therefore
included as part of this audit:

       •    United States Marshals Service (USMS)

       •    Federal Bureau of Prisons (BOP)

       •    Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)

       •    Federal Bureau of Investigation (FBI)

       •    Drug Enforcement Administration (DEA)

       •    Executive Office for United States Attorneys (EOUSA)

       1
           Internal controls are broadly defined as the policies and procedures established to
provide reasonable assurance regarding the effectiveness and efficiency of operations,
reliability of financial reporting, and compliance with applicable laws and regulations.
       2
          We conducted our audit as part of the PCIE’s examination of federal relief efforts
affected by Hurricanes Katrina, Rita, and Wilma. As such, a copy of this report will be
forwarded to the PCIE Homeland Security Working Group.
       3
           See Appendix I for more information on our objectives, scope, and methodology.




                                              1
      •   Community Relations Service (CRS)

      •   Office of Justice Programs (OJP)

      We identified critical control points in the purchase card process and
developed tests to determine if proper internal controls were implemented to
minimize misuse. We also conducted tests to determine whether
transactions were authorized and valid, and if the purchased goods or
services were received.


The DOJ Purchase Card Program

      The Justice Management Division (JMD) is responsible for the
operation of the purchase card program for the DOJ’s Offices, Boards, and
Divisions (OBDs).4 Each DOJ component that is not considered an OBD,
such as the FBI, DEA, and USMS, manage their own purchase card
programs. Within each DOJ component, certain individuals are assigned the
following purchase card responsibilities:

      •   Purchase Card Coordinators implement internal controls to ensure
          compliance with federal laws and agency regulations, and monitor
          program effectiveness. Their responsibilities include overseeing the
          establishment and maintenance of a master file of official
          cardholder records, training, appointment, single and monthly
          purchase limits, and related records. Coordinators also ensure
          cardholder statements and supporting documents are reviewed and
          utilized to monitor delinquency, misuse, and other transaction
          activities.

      •   Approving Officials (AO) ensure that internal controls are
          implemented for the purchase card program within offices where
          the cards are issued. To verify compliance with DOJ and
          component policies and procedures, all purchase card transactions
          are subject to mandatory monthly reviews conducted by AOs. The
          scope of monthly reviews includes purchase card expenditure limits,
          suitability of items purchased, and selection of reliable vendors.


      4
          The OBDs are comprised of 35 enforcement, litigating, and policy-making
components of the DOJ with a variety of missions and programs. EOUSA and CRS are also
part of the OBDs.




                                          2
          AOs must also take a refresher training course at a minimum of
          once every 3 years.

      •   Cardholders are the day-to-day users of the purchase card, with the
          responsibility for using it in accordance with DOJ and component
          policies and procedures. A cardholder’s purchase card
          responsibilities include: (1) limiting purchases to authorized
          thresholds, (2) purchasing only appropriate and approved items,
          (3) maintaining a purchase log, (4) maintaining supporting
          documents for purchases, and (5) taking refresher training at a
          minimum of once every 3 years.

     The following table provides a summary of relevant statistics
concerning the DOJ’s purchase card program

                        The DOJ’s Purchase Card Program

Number of Active Accounts                                                    11,032
Percentage of DOJ employees that are cardholders                               15%
Ratio of purchase cardholders to Approving Officials                            4:1
Average number of purchase card transactions reviewed per
Approving Official                                                                59
 Source: JMD reported to the Office of Management and Budget (OMB) January 31, 2006



Changes to Purchase Card Procedures Following 2005 Hurricanes

      Purchase card authority is based on the delegated procurement
authority of the cardholder. Most cardholders are limited to the micro
purchase threshold of $2,500 per transaction. However, cardholders with
contracting officer-delegated authority may use purchase cards for
acquisitions that exceed the micro purchase threshold up to their per
transaction limit. In response to hurricane relief and recovery efforts, on
September 8, 2005, DOJ authorized the use of emergency purchase card
procedures to increase procurement dollar thresholds as shown in the
following table:




                                         3
       INCREASED THRESHOLDS FOR CONTINGENCY OPERATIONS

           Procurement         Threshold           Exception         Comments
               Level5          Increased
           Micro Purchase    From $2,500 to    Construction      No competition
                             $15,000           contracts that    required under the
                                               are subject to    threshold. Simply
                                               the Davis-Bacon   place an order with
                                               Act (threshold    a responsible
                                               remains at        source at a
                                               $2,000)           reasonable price.
            Simplified       From $100,000     Not applicable    Provides relief from
            Acquisition      to $250,000                         the applicability of
                                                                 several laws,
                                                                 provisions, and
                                                                 clauses, listed at
                                                                 FAR 13.005c.
            Commercial       From $5 million Not Applicable      May use simplified
            Items            to $10 million                      procedures of FAR
                                                                 part 13, allowing
                                                                 for limited
                                                                 competition.
           Source: Acquisition Solutions Research Institute: Acquisition Directions
           Advisory, September 2005.

       The September 8, 2005, guidance further provided the following
direction:

       •     The increased threshold delegations should be selectively provided
             as needed,

       •     Procurements using the increased authority must have a clear and
             direct relationship to the support of the hurricane relief and
             recovery efforts, and


       5
          The Federal Acquisition Regulation (FAR) is the primary criteria for use by all
Federal Executive Agencies in their acquisition of supplies and services with appropriated
funds. A micro purchase is the acquisition of supplies or services, the aggregate amount of
which does not exceed $2,500, except as they pertain to construction contracts subject to
the Davis-Bacon Act or contingency operations. A simplified acquisition refers to the
methods described in FAR part 13 for purchases of supplies or services with an anticipated
dollar value exceeding $2,500 but not exceeding $100,000. According to the FAR, agencies
shall use simplified acquisition procedures to the maximum extent practicable for all
purchases of supplies or services not exceeding the simplified acquisition threshold
(including purchases at or below the micro purchase threshold). A commercial item refers
to items, other than real property, that is customarily used by the general public.




                                               4
       •   The increased threshold authority expired 120 days after the
           September 8, 2005, guidance.6

      Although each component had the authority to increase thresholds as
a result of hurricane relief and recovery efforts, CRS and OJP did not raise
thresholds or make other changes to their purchase card processes. The
following chart details changes each component made to its purchase card
procedures:

                 Changes Due to Hurricane Recovery Efforts


               Change                EOUSA          ATF      FBI    BOP     DEA     USMS
 Purchase card limits increased for
                                        X             X       X       X       X        X
 select cardholders.
 Fund availability was approved at a
 higher authority.                                    X
 Components centralized hurricane
                                                      X       X
 recovery purchases.7
 Emergency Purchase Cards
 provided without training.                                                   X
 Purchase Request (approval) form
 not always completed prior to
                                                                              X
 purchase.
 Headquarters obligated funds
                                                                              X
 rather than field offices.
 Source: OIG interviews of component personnel.

       Extra procedures were generally implemented to provide greater
oversight of transactions related to the hurricane relief and recovery effort
(e.g., centralized hurricane recovery purchases, funds approved at a higher
authority, headquarters obligating funds). However, DEA also enacted
procedures to speed the relief efforts, such as issuing emergency cards
without training.




       6
         On October 3, 2005, OMB issued further guidance to Executive Departments and
Agencies. The guidance stated that OMB concluded that the need for the increased micro
purchase threshold had diminished. Therefore, OMB requested that agencies not utilize the
increased micro purchase threshold unless there were exceptional circumstances.
       7
          For hurricane-related transactions, the FBI and ATF ratio of cardholders to AO
(span of control) was less than 4:1. As discussed later in this report, we observed that the
overall span of control in the FBI and ATF far exceeded 4:1.




                                             5
                                  AUDIT RESULTS

Transaction Testing

      As shown in the following table, we tested $3.8 million of the
$5.2 million (72 percent) that DOJ reported as purchase card expenditures
related to hurricane relief from August – December 2005. Most of the
purchase card transactions were for consumable items that fell well within
the micro purchase threshold. Such items included fuel, telecommunications
equipment, hydration packs, medical kits, office supplies, clothing, and
batteries. Items that exceeded the micro purchase threshold included
generators, trailers, and tents.

                              Transaction Universe and Sample

                         Sample                      Universe
                                                                                         Percent
                Number of                    Number of                    Percent of       of
Component      Transactions       Dollars   Transactions     Dollars     Transactions    Dollars
CRS                       5        $2,556              5        $2,556          100%         100%
OJP                       1          $430              1          $430          100%         100%
USMS                     81      $232,525            401      $368,038           20%          63%
BOP8                     54      $564,179                   $1,125,549                        50%
ATF                      65      $942,310          2,491    $1,245,852            3%          76%
FBI9                     67    $1,873,599            507    $2,178,418           13%          86%
DEA                      40      $146,347            200      $273,238           20%          54%
EOUSA                    25       $35,316            111       $47,530           23%          74%

  Totals                338    $3,797,262          3,716    $5,241,611            8%         72%
 Source: Component records.


     Our audit generally found that the tested purchase card transactions
were authorized and valid, and that the goods or services were received.
However, we noted the following exceptions:



       8
         BOP did not provide individual transactions but summary totals by cardholder;
therefore, the number of transactions in the universe was not available.
       9
          Three transactions tested totaling approximately $811,958 were identified by the
FBI as purchase card transactions. However, we later determined that the transactions
were not purchase card transactions but purchase orders. Additionally, two transactions
totaling $11,580 were either not billed for as of December 31, 2005, or cancelled.




                                             6
•   The FBI was not able to provide adequate supporting
    documentation for two transactions totaling $19,374. For these
    transactions, the FBI was unable to provide an invoice that
    reconciled to the purchase card statement. According to the FBI’s
    criteria, when an acquisition is made using a purchase card, a
    receipt document shall be retained as proof of purchase. All
    documents, including receipts, packing slips, purchase logs, dispute
    forms, and invoices, pertaining to purchase card transactions, must
    be retained for a period of 5 years from the cardholders statement
    date. The FBI’s criteria also states that if for some reason a
    cardholder does not have a proper receipt for any transaction, a
    document must be prepared that contains all appropriate
    information normally contained on a receipt (including vendor
    name, date of transaction, description, and dollar amount) and an
    explanation as to why the original receipt is not available. For the
    two transactions, such a document was not prepared.

•   The ATF did not maintain invoices to support 4 transactions totaling
    $25,110. Although the ATF was able to provide the invoices after
    contacting the vendors, the missing invoices may indicate that the
    AO was not adequately reviewing cardholder reconciliations.
    According to the ATF’s criteria, the AO must review the monthly
    billings and supporting documents to ensure cardholder’s purchases
    were made for government purposes and are in accordance with
    regulations. The invoices should have been maintained in order to
    complete reconciliation.

•   We could not verify that BOP received purchased goods or services
    related to 17 transactions totaling $112,328 because cardholders
    did not retain confirmations that purchased items were received.

•   One USMS transaction totaling $794.43 was unsupported.




                                 7
Internal Controls

     As shown in the following chart, DOJ components generally had similar
purchase card procedures:

                          PURCHASE CARD PROCEDURES


           CARDHOLDER                                                      FUNDS
            RECEIVES           CARDHOLDER
                                                                          ARE NOT
            PURCHASE             CHECKS               FUNDS
                                                                         AVAILABLE
                                SUPPLIERS           AVAILABLE?
             REQUEST




           PURCHASE IS                                 FUNDS                END
         APPROVED OR NO         PURCHASE
                                                   ARE AVAILABLE
           APPROVAL IS          APPROVED?
         REQUIRED PRIOR
          TO PURCHASE




                              PURCHASE NOT             END
                                APPROVED
         ORDER PURCHASE




                               CARDHOLDER                               CARDHOLDER
                             VERIFIES RECIEPT      CARDHOLDER             PROVIDES
           CARDHOLDER
                               OF ORDER TO         RECONCILES          RECONCILIATION
          RECEIVES ITEM
                                RECEIVING            MONTHLY                TO AO
                                 REPORT             STATEMENT




                                                  AO PROVIDES          AO REVIEWS
                                                 STATEMENT TO        RECONCILIATION
                                  END             ACCOUNTING         AND SUPPORTING
                                                                       DOCUMENTS



      Source: OIG interviews and component policies and procedures




                                             8
      Our audit found sufficient written operational procedures that were
generally followed for the transactions we reviewed. However, we identified
two overall areas of concern: training and the ratio of cardholders to AOs,
also known as the span of control.10

     Training

       Cardholders, AOs, and purchase card coordinators are required to
complete training prior to the issuance of a purchase card. In addition,
purchase card refresher training must be completed every 3 years and ethics
training every year. The training emphasizes the responsibilities of the
cardholder and AO to ensure the card is not misused. As shown in the
following table, all components conducted some method of initial purchase
card training. However, some components indicated they did not conduct
refresher training.

                               Component Training

                                              Initial                 Refresher
              Component                  Training Method               Course
                EOUSA                   GSA Online Training              YES
                  ATF                   GSA Online Training              NO
                  FBI                    In-House Training               NO
                  BOP                    In-House Training               YES
                  DEA                    In-House Training               YES
                 USMS                   GSA Online Training              NO
                  OJP                    In-House Training               NO
                  CRS                   GSA Online Training              YES
     Source: Interviews with Cardholders, Approving Officials, and Program Coordinators.

      During the audit we observed instances that emphasized the need for
refresher training. Those instances include:

     •    Some cardholders were not aware that they were precluded from
          charging items such as hotel conference room charges, travel, and
          construction services.

     •    Some cardholders did not verify the availability of funds prior to
          making a purchase or did not document the verification of funds,
          and


     10
          See Appendix II for a summary of internal control issues by component.




                                            9
       •    Some cardholders and AOs did not obtain or retain all the required
            supporting documentation specified by JMD in order to validate the
            purchase.

       Span of Control

      The span of control that an AO maintains may have a significant
impact on the AO’s ability to provide competent and timely oversight of a
purchase card’s use. In a previous OIG review, we recommended a span of
control of no more than 7 cardholders to an AO, or a total of 300
transactions per month.11 Six of the 8 components maintained an average
span of control of 4 cardholders to 1 AO. However, ATF has on average 65
cardholders per AO, with 23 AOs responsible for over 100 cardholders. The
FBI has on average 23 cardholders per AO, with 5 AOs responsible for 50 or
more cardholders. In addition, we found that ATF and FBI have AOs that are
cardholders in the same group, which may allow the AOs to approve their
own transactions.12

Conclusion

      Our audit found that nearly all of the hurricane-related purchase card
transactions we tested were authorized, valid, and the goods or services
purchased were received. However, we identified internal control issues that
should be corrected to ensure that future government funds are not at risk.
Specifically, we found that the FBI and ATF had excessive cardholder to AO
spans of control. Further, we determined that AOs and cardholders need
refresher training and such training should emphasize the requirement to
document the availability of funds, the prohibited purchases, and the
importance of retaining adequate documentation.




       11
           Department of Justice, Office of the Inspector General, Investigations Division,
Fraud Detection Office, Review of the Department of Justice Charge Card Program, April
2005. The review noted that instead of names, cardholder profiles listed positions which
made it impossible to use data mining techniques to determine the cardholder to AO ratio.
During our audit we reviewed cardholder profile data and observed that some of the profiles
listed positions rather than names. The report recommended that components update
cardholder profile data in order to take advantage of data-mining and other techniques for
reviewing purchase card transactions for possible misuse.
       12
         ATF has 35 approving officials who are cardholders in the same group. The FBI
has 26 approving officials who are cardholders in the same group.




                                            10
Recommendations

    We recommend that EOUSA, FBI, DEA, USMS, OJP, CRS, BOP, and
    ATF:

  1. Ensure that cardholder profiles are updated and a maximum ratio of 7
     cardholders to 1 AO, or total of 300 transactions per month is
     maintained.

  2. Reinforce policies on what items are not allowed to be purchased with
     purchase cards, the requirement to document the availability of funds,
     and the importance of retaining required supporting documentation.

     We recommend that ATF, FBI, USMS, and OJP:

  3. Institute required purchase card refresher training.




                                    11
           STATEMENT ON COMPLIANCE WITH LAWS AND
                        REGULATIONS

     We audited hurricane relief purchase card transactions in eight DOJ
components.13 The audit covered the period from August 2005 to December
2005. The audit was conducted in accordance with the generally accepted
Government Auditing Standards.

       Compliance with laws and regulations is the responsibility of the
individual components. In connection with the audit and as required by the
Standards, we reviewed procedures, activities, and records to obtain
reasonable assurance about the components’ compliance with laws,
regulations, and Office of Management and Budget (OMB) criteria that, if not
complied with, could have a material effect on program operations.

      Our audit included examining, on a test basis, evidence about laws,
regulations, and OMB Circulars. The specific laws and regulations for which
we conducted tests are contained in the relevant portions of:

      •    OMB Circular A-123

      •    Federal Acquisition Regulation, Part 13 – Simplified Acquisition
           Procedures

      We also reviewed the following laws and regulations, and purchase
card related documentation and procedural manuals applicable to the
components’ administration of the hurricane relief purchase card
transactions:

      •    September 8, 2005 Memorandum, DOJ Procurement Guidance
           Document 05-05 - Increased Thresholds for Procurements in
           Support of Hurricane Katrina Relief and Recovery Efforts




      13
           The eight components were the: United States Marshals Service (USMS), Federal
Bureau of Prisons (BOP), Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF),
Federal Bureau of Investigation (FBI), Drug Enforcement Administration (DEA), Executive
Office for United States Attorneys (EOUSA), Community Relations Service (CRS), and Office
of Justice Programs (OJP).




                                           12
      •   October 3, 2005 Executive Office of the President Memorandum –
          Limitation on Use of Special Micro-purchase Threshold Authority for
          Hurricane Katrina Rescue and Relief Operations.

      •   Justice Management Division’s Purchase Card Program for
          Simplified Acquisitions Manual.

      •   Component purchase card procedures and manuals

      •   GSA Purchase card On-line Training

      •   FBI Purchase card training.

      Except for the instances of noncompliance identified in the Audit
Results section of this report, the hurricane relief purchase card transactions
were in compliance with the laws and regulations referred to above.




                                        13
                                                             APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

      The objectives of the audit were to determine if DOJ components:
(1) employed effective controls over hurricane relief purchase card
transactions to ensure that problems are minimized, (2) authorized and
validated hurricane-related purchase card transactions, and (3) received the
hurricane-related goods and services that were purchased. We conducted
our audit in accordance with Government Auditing Standards and included
such tests as were considered necessary to accomplish our objectives. Our
audit concentrated on identified hurricane relief purchase card transactions
for the period August 2005 through December 2005.

      We obtained an understanding of each component’s purchase card
process by interviewing pertinent component personnel including
cardholders, AOs, and purchase card administrators. In addition, we
reviewed the JMD Purchase Card Program for Simplified Acquisitions Manual,
and the individual component policies and procedures.

       As part of our audit, we obtained from the DOJ components a universe
of hurricane relief purchase card transactions. We performed limited testing
on the data. Although we are not expressing an opinion on the data, we
believe that the data used for our sampling and testing purposes was
reliable to the extent needed. There are eight DOJ components that
acknowledged hurricane relief purchase card transactions. The following
table summarizes the total expenditures provided to our office for the period
August 2005 through December 2005.

                  Purchase Card Transaction Universe
                      Component                   Dollars
                      CRS                     $    2,556
                      OJP                            430
                      USMS                       368,038
                      BOP                      1,125,549
                      ATF                      1,245,852
                      FBI                      2,178,418
                      DEA                        273,238
                      EOUSA                       47,530
                       Totals                 $5,241,611




                                     14
       We conducted tests to determine whether transactions were
authorized, valid, and received.14 We identified control points and developed
tests to determine if proper internal controls were implemented and followed
to prevent or minimize the misuse of government purchase cards. The
sample selections were made based upon the following methodology:

                                OIG SAMPLING PLAN
                                     (By Component)
              Component                                Methodology

                                    We applied a three tiered approach to sampling:
                                    (1) we selected the 25 high-dollar purchases;
                                    (2) we determined the top four purchasers from the
            EOUSA, FBI, ATF,        component and selected a maximum of 25
             USMS, and DEA          transactions per top high-dollar purchaser; (3) we
                                    reviewed the universe of hurricane transactions and
                                    selected individual transactions that were either
                                    incomplete, unusual, or possible split purchases.

                                    Due to limited transactions, we selected 100% of
               OJP, CRS
                                    the hurricane relief purchases.

                                    We selected the top five purchasers and added an
                  BOP               additional high-dollar purchaser at the Coleman and
                                    Beaumont sites.
       Source: OIG Transaction Testing

      Once we identified the transactions to test, we grouped locations
together in order to efficiently test each of the component’s transactions.
For the areas where we had few transactions, we secured hard copy
documentation from the component and conducted phone interviews.

       This audit was not made for the purpose of providing assurance on the
components’ internal controls over purchase card transactions as a whole.
Because we are not expressing an opinion on the component’s controls over
purchase card transactions as a whole, this statement is intended solely for
the information and use of the component’s management in monitoring the
purchase card program. This restriction is not intended to limit the
distribution of this report.


       14
           A majority of the items tested were consumables such as water, food, fuel, office
supplies, batteries, and clothing. Therefore we were not able to physically verify the
existence of the items. Further, some items were services such as repairs of machinery and
cleaning services that did not lend themselves to physical verification.




                                            15
                                                                       APPENDIX II


            SUMMARY OF INTERNAL CONTROL ISSUES

   Internal Control Issue                           Policy                       Component
                                 JMD policy indicates certain items that are
                                 not allowed to be purchased using the
Cardholders were unaware they
                                 government credit card. Additionally,
are precluded from purchasing
                                 EOUSA policy states that the purchase card
certain items with their
                                 may not be used for personal purchases,         EOUSA, FBI,
purchase cards.
                                 ATM transactions, Travel and subsistence        BOP, USMS,
                                 (except as defined at FAR).                     DEA, CRS
                                 OMB Circular A-123, Appendix B states
Refresher training was not
                                 that purchase card refresher training must      ATF, FBI,
provided.
                                 be completed every three years.                 USMS, OJP
Average Cardholder to AO Ratio   JMD policy states that the approving
was higher than the JMD          official cannot have oversight of more than
prescribed 15:1 ratio.           15 cardholder accounts.                         ATF, FBI
                                 In accordance with Federal Appropriations
                                 Law, funds must be certified available in
The cardholders did not verify   writing prior to placing the purchase card
funds prior to purchase.         order. In addition FAR 1602-2 states that
                                 contracting officers responsibilities include
                                 ensuring that sufficient funds are available.   ATF
                                 In accordance with Federal Appropriations
                                 Law, funds must be certified available in
The cardholder did not
                                 writing prior to placing the purchase card
document the availability of
                                 order. In addition FAR 1602-2 states that
funds.
                                 contracting officers responsibilities include   ATF, OJP,
                                 ensuring that sufficient funds are available.   CRS
                                 JMD policy states that cardholders have
                                 the responsibilities to maintain a purchase
                                 card file for each month of the fiscal year.
                                 The file should include purchase card
The cardholder/AO did not
                                 request, certified funding documentation
retain all required supporting
                                 for purchases, applicable FAR and
documentation.
                                 department clauses/provisions, receiving
                                 report or statement that the
                                 goods/services have been received, invoice      ATF, BOP,
                                 and statement.                                  FBI, USMS




                                           16
                                                          APPENDIX III

               RESPONSES TO THE DRAFT REPORT


      We provided a draft audit report to the components involved for
review and comment. The JMD, as DOJ’s Agency Program Coordinator,
responded to the draft report as well as 7 of the 8 components we audited.
The CRS deferred its comments to JMD, as the DOJ component responsible
for the purchase card program for the OBDs. All the responses are
incorporated into this appendix. Appendix IV contains the OIG analysis of
each response, and a summary of actions necessary to close the report.




                                    17
EOUSA RESPONSE TO THE DRAFT AUDIT REPORT




                   18
19
DEA RESPONSE TO THE DRAFT AUDIT REPORT




                  20
21
FBI RESPONSE TO THE DRAFT AUDIT REPORT




                  22
23
24
25
26
27
BOP RESPONSE TO THE DRAFT AUDIT REPORT




                  28
29
30
31
ATF RESPONSE TO THE DRAFT AUDIT REPORT




                  32
33
USMS RESPONSE TO THE DRAFT AUDIT REPORT




                  34
35
OJP RESPONSE TO THE DRAFT AUDIT REPORT




                  36
37
JMD RESPONSE TO THE DRAFT AUDIT REPORT




                  38
39
                                                                       APPENDIX IV

    OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
   SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT

      The OIG provided a draft of this audit report to the Justice
Management Division (JMD) and the eight components included as part of
this audit. The responses are incorporated as Appendix III of this final
report. The OIG analysis and summary of actions necessary to close the
report is presented in three parts. The first section presents the JMD’s plan
for establishing standards for DOJ’s charge card program, and for ensuring
that a system of internal controls are in place for effective oversight and to
maximize the benefits when using government charge cards. The second
section discusses the OIG analysis of the FBI’s disagreements with aspects
of the report. The third section presents the summary of actions necessary
to close the report.

DOJ Charge Card Management Plan

      JMD, as DOJ’s Agency Program Coordinator, responded to the draft
report. In its response, JMD proposed to take the following actions:

       •    Issue a Procurement Guidance Document requiring that all DOJ
            components have no more than 7 cardholders per Approving Official
            and that cardholder profiles are updated in Pathway Net® no later
            than 3 working days after any changes occur.15

       •    Work with each component’s program coordinator to develop a list
            of items that should not be bought with purchase cards, and
            minimum documentation requirements for purchase card files.

       •    Meet with the ATF, FBI, USMS, and OJP to assess how each can
            best meet the refresher training requirements.




       15
           Pathway Net® is a proprietary web-based system that provides for an automated
and paperless means for maintaining, retrieving, and storing purchase card transactions.
The Pathway Cardholder profile is an electronic file that is used to identify specific data
relating to individual cardholders including personal data, single purchase limit, monthly
cycle limit, assigned approving official, and contact information.




                                            40
      In addition, JMD stated in its response that all DOJ purchase cards will
be reissued in late October 2006. At that time, the purchase card
hierarchies will be reviewed and updated.

       Subsequent to providing its response to the draft report, JMD provided
the OIG with its DOJ Charge Card Management Plan that establishes a
system of internal controls and serves as a framework for Departmental
policies and procedures for the appropriate use of charge cards. The plan
was developed in response to the requirements of Office of Management and
Budget (OMB) Circular A-123 Appendix B, Improving the Management of
Government Charge Card Programs. The plan establishes the minimum
standards, requirements, and best practices for charge card programs within
the Department.

      According to the plan, cardholders are appointed based on a thorough
review of the requesting organization’s mission, procurement activity, and
the number of cardholders available to support that activity. AOs are
appointed at a sufficient level commensurate with the duties to ensure that
they effectively monitor the performance of their cardholders. The plan does
not specify a maximum cardholder to AO ratio but states that bureaus must
consider the span of control to ensure that the number of cardholders and
the charge card volume is at an appropriate level for effective review and
control of cardholder performance.

       Training is required for cardholders, AOs, and Agency Program
Coordinators (APC) prior to appointment. Refresher training must be
completed within 3 years after appointment, or date of last refresher
training. All participants are required to submit copies of their training
certificates to the appropriate APC. According to the plan, cardholders with
delegated purchase card authority over the micro-purchase threshold receive
additional training and must be warranted contracting officers.

       The plan also outlines risk management procedures that can be
tailored to specific component requirements for detecting possible misuse.
According to the plan, as the capabilities of the Pathway Net® system are
enhanced, the Department will benefit from more powerful data mining
tools.




                                      41
Analysis of FBI Response

      Given the emergency situation, the OIG believes that the FBI generally
followed appropriate record keeping procedures for the purchase card
transactions it reviewed. Our report contains the total FBI dollars we tested
as well as the dollar amounts related to the exceptions that we identified.
Therefore, we believe that we have reported our findings in the proper
context. However, the OIG disagrees with the FBI’s statement that the OIG
has no evidence of any improper record keeping or internal control issues.
During our audit, we identified purchases from two vendors (Baton Rouge
Police Supply and Merchandise Distributor) where the FBI did not follow its
own policies and procedures. In addition, certain FBI purchase card holders
could not identify items that were precluded from purchase with a purchase
card. These issues are discussed in more detail below.

Baton Rouge Police Supply

      The OIG requested that the FBI provide a listing of purchase card
transactions related to hurricane recovery efforts. On the listing provided
was a transaction for Baton Rouge Police Supply for $15,700.97. The OIG
requested the invoices for the transaction on April 10, 2006, and received
documentation and four invoices on June 12, 2006, from the FBI totaling
$16,369.80.
                  Invoice      Amount            Date
                  14105        $ 6,636.08       09-10-05
                  14133        $ 5,881.12       09-16-05
                  14156        $ 3,569.41       10-01-05
                  14322        $ 283.19         11-17-05
                               $16,369.80

       The OIG auditors requested clarification on the difference between the
originally stated amount of $15,700.97 and the $16,369.80. The OIG was
told that the $15,700.97 was an estimate. In order to determine if we
received all invoices for Baton Rouge Police Supply and validate the Baton
Rouge Police Supply transactions, we searched the transaction database,
and found four additional charges. Two were charges for convenience check
fees of $1.50 each; one was a 10-03-05 transaction for $1,235; and another
was a 10-04-05 transaction for $71.98.




                                     42
       The OIG again requested clarification given the additional charges and
requested copies of the invoices. The FBI supplied the OIG with a new
listing of transactions totaling $17,678.88 as of June 22, 2006, but informed
the OIG that it did not have invoices to support the $1,235 and $71.98
transactions.

      According to the FBI’s criteria, when an acquisition is made using a
purchase card, a receipt document shall be retained as proof of purchase.
All documents, including receipts, packing slips, purchase logs, dispute
forms, and invoices, pertaining to purchase card transactions, must be
retained for a period of 5 years from the cardholders statement date. The
FBI’s criteria also states that if for some reason a cardholder does not have a
proper receipt for any transaction, a document must be prepared that
contains all appropriate information normally contained on a receipt
(including vendor name, date of transaction, description, and dollar amount)
and an explanation as to why the original receipt is not available. When the
OIG reviewed the supporting documentation provided by the FBI, we could
not identify either invoice for these two transactions or a document
containing all appropriate information normally contained on a receipt and a
written explanation on why the invoices were not obtained.

       Given the length of time the FBI took to provide the OIG with
supporting invoices, the change in the number of invoices (originally told 4
then changed to 6), the total amount for Baton Rouge Police Supply
(originally provided $15,700.97, then $16,369.80, and then $17,678.88),
the missing two invoices, and the lack of documentation explaining why an
invoice was not available, we concluded that the FBI did not follow its
policies and procedures governing document retention, and we considered
this an internal control finding.

Merchandise Distributor

        The OIG auditors were not provided an invoice for a $3,673.30
Merchandise Distributor transaction dated September 13, 2005. The FBI
instead provided a screen shot from the website used to make the purchase.
The screenshot was for a Merchandise Distributor transaction dated
September 4, 2005, for the amount of $3,710.40. The OIG requested
clarification of why the screenshot reflected a different date and amount.
The FBI cardholder stated that she may have received a discount; however,
she could not provide documentation to substantiate her claim. Therefore,
we are not certain that the transaction in question is the same transaction




                                      43
that we sampled. The FBI contends however that because the screenshot is
for a greater amount then what the FBI was charged, there is no issue.
However, the absence of an invoice or documentation explaining why an
invoice was not obtained is a violation of the FBI’s purchase card criteria –
an internal control issue.

Use of Senior Contracting Officer

       The FBI took exception to the fact that our report did not include the
qualifications and achievements of a particular contracting officer. However,
this contracting officer was not the sole contracting officer who made FBI
purchases and more importantly, the draft report did not identify any of the
senior contracting officers or other personnel from any of the reviewed
components. As we previously discussed with the FBI when it raised this
issue on June 22, 2006, many components used experienced contracting
officers to handle the bulk of major purchase card transactions and several
components deployed these officers to the hurricane recovery sites. While
we did not identify any of the contracting officers by name, or document
personal accomplishments, we did specify the actions the components used
to respond to hurricane recovery efforts in a chart on page 5 of our report.

Appendix II

       In its response, the FBI stated that it contacted all the cardholders the
OIG interviewed and all cardholders stated they were not asked if they were
precluded from purchasing any items. During our audit, each cardholder we
interviewed was asked if they were precluded from purchasing anything with
their cards. Three of seven cardholders responded that they were either not
precluded or did not know if they were precluded from making certain
purchases. Although the OIG did not identify that precluded purchases were
made, the FBI told us prior to the issuance of the draft report that they
considered this issue to be very disturbing. An FBI official stated that he
would “pull” the purchase cards of cardholders who were not aware of
precluded items.16 While the FBI is within its right to cancel purchase cards,
we believe that the issue could be better addressed by reinforcing policies on
what items are not allowed to be purchased with purchase cards, and by
instituting refresher training where applicable.


       16
         FBI procurement policy identifies several items that all cardholders are precluded
from purchasing with their cards including hotels, food, lodging, rental of motor vehicles,
telecommunications services, and rental or lease of land or buildings.




                                            44
Summary of Actions Necessary to Close the Report

     Based on responses received by the audited components and JMD, the
OIG considers the report resolved. The following is a summary of actions
necessary by each component to close the recommendations.

EOUSA

  1. Resolved. This recommendation is resolved based on the EOUSA’s
     action to assist JMD in updating cardholder profiles and their
     agreement to the maximum cardholder to AO ratio of 7:1. The EOUSA
     response states that there is an option in regard to the cardholder to
     AO ratio given that the current JMD guidance indicates a maximum of
     15:1. However, JMD has agreed to revise its policy and require the
     7:1 ratio or 300 transactions. This recommendation can be closed
     when we receive and review the amended EOUSA policy limiting the
     cardholder to AO ratio to 7:1 or 300 transactions.

  2. Closed. This recommendation is closed based on the EOUSA updating
     and distributing its U.S. Attorneys’ Procedures on the Government
     Purchase Card Program.

DEA

  1. Resolved. The DEA stated that its Purchase Card Handbook requires
     the Local Agency Program Coordinator and Purchase Card Approving
     Official to ensure cardholder profiles are current and the maximum
     rate of cardholders to AOs is observed in establishing new accounts.
     This recommendation can be closed when we receive copies of the DEA
     policy requiring cardholder profiles are updated and the requirement
     that the ratio of cardholders to AO does not exceed the 7:1 ratio or
     300 transactions.

  2. Resolved. The DEA stated that it established management controls
     and restrictions on the types of purchases that can be made under the
     Purchase Card Program by restricting certain Merchant Category
     Codes. These restrictions have been issued in a Purchase Card Flash,
     which is an internal DEA email on news and policy notice, and also in
     DEA’s Purchase Card Program Handbook. Should a cardholder attempt
     to make a purchase from a restricted merchant, the purchase is
     declined by software at the point of sale, because all DEA purchase




                                   45
      cards are coded to reject a particular Merchant Category Code. This
      recommendation can be closed when we receive documentation of DEA
      reinforcing policies on what items are not allowed to be purchased with
      purchase cards and the minimum documentation to be maintained in
      purchase card files.

FBI

  1. Resolved. This recommendation is resolved based on the FBI’s action
     to address the cardholder to AO ratio. This recommendation can be
     closed when we receive and review the documentation outlining the
     requirement to maintain the 7:1 cardholder to AO ratio or 300
     transactions, and confirmation that the cardholder profiles have been
     updated.

  2. Resolved. This recommendation is resolved based on the FBI’s
     agreement with the recommendation. This recommendation can be
     closed when JMD issues revised guidance that includes a do not buy
     list and the minimum documentation to be maintained in purchase
     card files, and we receive and review any revisions to the FBI’s
     guidance that are necessary based on JMD’s revised guidance.

  3. Resolved. This recommendation is resolved based on the FBI’s
     planned action to require refresher training and the training schedule
     for cardholders and AOs through 2007. This recommendation can be
     closed when we receive and review the amended policy requiring
     refresher training and documentation of how the FBI will provide
     refresher training after 2007.

BOP

  1. Resolved. This recommendation is resolved based on the BOP’s
     action to require updated cardholder profiles and the adherence to the
     7:1 cardholder to AO ratio. This recommendation can be closed when
     we receive confirmation that the field offices have updated the
     cardholder profiles.

  2. Closed. This recommendation is closed based on the BOP’s memo
     reinforcing policies on what can be purchased, documentation on the
     availability of funds, and maintenance of supporting documentation.




                                     46
ATF

  1. Resolved. The ATF stated it updates its manual listings to identify
     approving officials by position and clarify policies and procedures.
     While the OIG believe this is a good step, the recommendation was
     directed at updating the cardholder profiles in Pathway Net® so the
     approving official is easily identified and ratio of cardholder to AO is
     easily monitored. In order to close this recommendation, please
     provide documentation that ATF has updated cardholder profiles and
     requires a maximum cardholder to AO ratio of 7:1 or 300 transactions.

  2. Resolved. This recommendation is resolved based on the ATF’s
     action to reinforce policies on what items are not allowed to be
     purchased with purchase cards, the requirement to document the
     availability of funds, and the importance of retaining required
     supporting documentation. This recommendation can be closed when
     we receive and review the specific ATF update of the Bureau order,
     postings to the appropriate Bureau intra-web pages and reminders
     issued to cardholders.

  3. Resolved. This recommendation is resolved based on the ATF’s
     action to require purchase card refresher training. This
     recommendation can be closed when we receive documentation that
     ATF has amended its policies to require refresher training and has
     implemented the refresher training.

USMS

  1. Resolved. This recommendation is resolved based on the USMS’s
     action to remind all cardholders and AOs of the requirement to update
     profile information and the maximum cardholder to AO ratio is 7:1.
     This recommendation can be closed when we receive documentation
     that the cardholder profiles have been updated and the USMS provides
     documentation specifying the required 7:1 ratio or 300 transactions.

  2. Resolved. This recommendation is resolved based on the USMS’s
     action to reinforce policies on what items are not allowed to be
     purchased with purchase cards, the requirement to document the
     availability of funds, and the importance of retaining required
     supporting documentation. This recommendation can be closed when
     we receive documentation of this USMS directive.




                                    47
  3. Resolved. This recommendation is resolved based on the USMS’s
     planned action to institute refresher training. This recommendation
     can be closed when we receive documentation that the USMS has
     amended policies requiring refresher training and has implemented the
     refresher training.

OJP

  1. Resolved. This recommendation is resolved based on OJP’s action to
     require updated cardholder profiles and the adherence to the 7:1
     cardholder to AO ratio. This recommendation can be closed when we
     receive confirmation that the field offices have updated the cardholder
     profiles and documentation demonstrating the maximum cardholder to
     AO ratio is within the 7:1 ratio or 300 transactions.

  2. Resolved. This recommendation is resolved based on OJP’s action to
     reinforce policies on what items are not allowed to be purchased with
     purchase cards, the requirement to document the availability of funds,
     and the importance of retaining required supporting documentation.
     This recommendation can be closed when we receive documentation of
     the training provided and attendance at that training.

  3. Resolved. This recommendation is resolved based on OJP’s planned
     action to institute refresher training. This recommendation can be
     closed when we receive documentation that the OJP has amended
     policies requiring refresher training and has implemented the refresher
     training.

CRS

  1. Resolved. This recommendation is resolved based on JMD’s planned
     efforts to issue a Procurement Guidance Document (PGD) requiring
     that all bureaus have no more than 7 cardholders to an AO and
     cardholder profiles are updated in Pathway Net® no more than 3
     working days after a change occurred. This recommendation can be
     closed when we receive and review JMD’s amended policy.




                                    48
2. Resolved. This recommendation is resolved based on JMD’s planned
   efforts to issue the PGD specifying minimum documentation
   requirements for purchase card files. Additionally JMD will meet with
   the bureaus and develop a “do not buy” list that will be attached to the
   PGD and included in training. This recommendation can be closed
   when we receive and review the JMD amended policy and the
   developed “do not buy” list.




                                  49
